CERTIFICATE OF SERVICE
NO. 20-1623
David Paul Bohler
Petitioner,
v.
City of Fairview, Tennessee
Respondent.
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the CITY OF
FAIRVIEW, TENNESSEE BRIEF IN OPPOSITION, by mailing three (3) true and correct copies of the same
by Fedex 2-Day, prepaid for delivery to the following address.
Paul Andrew Justice III
The Justice Law Office
1902 Cypress Drive
Murfreesboro, TN 37130
(615) 419-4994
drew@justicelawoffice.com
Counsel for David Bohler

Lucas DeDeus

June 21, 2021
SCP Tracking: Crane-12 Cadillac Drive, Suite 480-Cover Orange

